     Department of Homeland Security





           FEMA Hazard Mitigation Grant 

            Program Funds Awarded to 

               Comal County, Texas





DD-12-13                                    June 2012

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                  Washington, DC 20528 / www.oig.dhs.gov



                                       JUN 2 1 2012

MEMORANDUM FOR:

                                                                             ncy

FROM:                                  I
                                 Assi st nt Inspector General
                                 Office of Emergency Management Oversight

SUBJECT:                         FEMA Hazard Mitigation Grant Program Funds Awarded to
                                 Comal County, Texas
                                 FEMA Disaster Number 1606-DR-TX
                                 Audit Report Number DD-12-13

We audited Hazard Mitigation Grant Program (HMGP) funds awarded to Comal County,
Texas (County). Our audit objectives were to determine whether the County accounted
fo r and expended Federal Emergency Management Agency (FEMA) grant funds
according to Federal regulations and FEMA guidelines; the County's project met FEMA
eligibility requirements; and project management complied with applicable regulations
and guidelines.

The Texas Division of Emergency Management (TDEM), a FEMA grantee, awarded the
County $16,302,516 ($12,226,887 Federal share) for one project. 1 TDEM selected the
County's project for submission to FEMA from applications it received following
Hurricane Rita, which occurred in September 2005.

The purpose of the award was to .construct a drainage improvement structure to
mitigate future flooding losses. The award provided FEMA funding for 75 percent of
eligible project costs. At the t ime of our audit, the project was not complete. The audit
covered the period from application submittal in January 2006 to our audit cutoff date
in November 2011. During this time, the County claimed $6,272,845 in direct project
costs. Because the County was still working to complete the project, we focused our
audit procedures on eligibility and project management, rather than costs claimed.




1TDEM awarded $7 million in February 2008 and an add itional $9.3 million in December 2010 because of
a design flaw in the County's original engineering plans.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   We conducted this performance audit between November 2011 and May 2012 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives. We conducted this audit according to the statutes, regulations, and
   FEMA policies and guidelines in effect at the time of the disaster.

   We interviewed FEMA, TDEM, and County officials, reviewed factors and assumptions
   used in determining project eligibility, and performed other procedures considered
   necessary to accomplish our objectives. Because we determined that the entire project
   was ineligible, there was no need to address two of our audit objectives: (1) to
   determine whether the County accounted for and expended FEMA grant funds
   according to Federal regulations and FEMA guidelines; and (2) to determine whether
   project management complied with applicable regulations and guidelines. We did not
   assess the adequacy of the County’s internal controls applicable to grant activities
   because it was not necessary to accomplish our audit objectives. However, we did gain
   an understanding of the County’s method of accounting for project-related costs.


                                         BACKGROUND

   FEMA provides HMGP grants on a cost-shared basis to eligible applicants within a State
   declared eligible for Federal assistance to implement measures designed to reduce the
   loss of life and property from natural disasters. FEMA’s eligibility criteria require that an
   applicant have a FEMA-approved hazard mitigation plan and that projects be cost
   effective, comply with environmental and historic preservation requirements, and
   provide a long-term beneficial impact. Eligible applicants include State and local
   governments, certain private nonprofit organizations and institutions, and Indian tribes
   or tribal organizations. Although FEMA is primarily responsible for determining project
   eligibility, the State, as grantee, is required to demonstrate that the project is cost
   effective. The grantee also has primary responsibility for project management and the
   accountability of funds.


                                       RESULTS OF AUDIT

   The County’s project did not meet FEMA eligibility requirements. As a result, we
   question the entire project totaling $16,302,516 ($12,226,887 Federal share) as
   ineligible costs. FEMA officials approved this ineligible project because they did not
   review the County’s benefit cost analysis (BCA) methodology and, therefore, were not

www.oig.dhs.gov                                  2                                         DD-12-13
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   aware that the project did not meet FEMA eligibility requirements. Therefore, we also
   recommend that FEMA develop and implement project review and approval processes
   and procedures, which will ensure that project eligibility requirements are enforced in
   the future.

   Finding: Project Eligibility

   The County’s project is not cost effective according to Federal regulations in effect at
   the time of the County’s HMGP application. As a result, the project is not eligible for
   FEMA funding, and we question the $16,302,516 ($12,226,887 Federal share) in total
   project costs. Federal regulations at 44 CFR 206.434(c)(5)(ii) required that a project be
   cost effective and that costs and benefits be computed on a net present value (NPV)
   basis. FEMA’s guidance at the time the County submitted its application described “cost
   effective” as having a benefit-to-cost ratio of one or greater. Although the County
   computed a benefit-to-cost ratio of 1.17, this ratio was incorrect because the County did
   not calculate its total project costs and benefits on an NPV basis. Rather, the County
   used a different methodology, as explained below. If the County had calculated its BCA
   correctly, the benefit cost ratio would have been 0.36, making the project ineligible.
   FEMA officials approved the County’s initial HMGP project application without reviewing
   the County’s BCA methodology and, therefore, were not aware that the project did not
   meet FEMA eligibility requirements. Although FEMA policy at the time of the County’s
   application did not limit an applicant to using only a FEMA BCA module, the policy
   stated that, if an applicant uses an alternate methodology, FEMA must approve the
   alternate BCA methodology in advance. Such an alternate methodology had to be
   consistent with FEMA’s modules and use NPV in calculating project costs and benefits.

   FEMA officials said that they had a large void in their HMGP grants management team
   and that they are now focusing on modernizing their overall grants portfolio
   management. Additionally, in July 2011, FEMA Headquarters released a standardized
   application review process for all regions to use. After we discussed the County’s
   incorrect BCA methodology with FEMA officials, they recommended that TDEM suspend
   additional funding of this project pending resolution of our audit report.

   FEMA established its cost effectiveness analysis based on the principle that a project has
   to return more money over its life than it costs initially. The return is money saved
   because a mitigation measure reduces or prevents future damages. The NPV of benefits
   is the total value of benefits over a project’s useful life, discounted at a rate provided by
   the Office of Management and Budget in its Circular A-94, Revised, Guidelines and
   Discount Rates for Benefit-Cost Analysis of Federal Programs. FEMA calculates the NPV
   of annual inspection and vegetation removal costs in the same manner.




www.oig.dhs.gov                                 3                                          DD-12-13
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   The County established cost effectiveness by assuming that it would fund the project on
   its own. To establish project costs, the County would incur a $7 million debt for 30 years
   at 5.5 percent interest, which was in line with its other debt instruments at the time it
   submitted its HMGP application. The County added the estimated yearly maintenance
   costs to the total amortized costs to determine total project costs. The County divided
   those costs by the project’s useful life of 100 years, and then divided the average annual
   benefit (projected by a U.S. Department of Agriculture software application, not a FEMA
   BCA module) by the average annual cost to arrive at the benefit cost ratio of 1.17.

   The County’s methodology was inappropriate for several reasons: it was not consistent
   with any of FEMA’s BCA modules, it was not approved by FEMA in advance of its use,
   and it established project costs based on a debt it would not fully incur because FEMA
   would fund 75 percent of the project. However, the most significant flaw in the
   County’s methodology was that it did not consider the present value of future benefits.

   Table 1 compares the BCA methodology the County used to the methodology that
   incorporates the use of NPV. The project cost, annual maintenance cost, average
   annual benefit amount, and the project’s useful life used in both methodologies are the
   same as those the County used in its project application.

        Table 1: Comparison of County’s BCA Methodology to Required Methodology

         Comal County Methodology                          Required Methodology
  2006 Cost of Project          $7,000,000         2006 Cost of Project      $7,000,000
  Total Principal and Interest
  Payments Over a 30-year
  Period                       $14,372,407
  Assumed Average Annual
  Cost Over a 100-Year
  Useful Life                    $143,724
  Annual Maintenance Costs          $7,323         Annual Maintenance Costs           $7,323
                                                   Net Present Value (NPV) of
                                                   Annual Maintenance Costs        $104,499
  Annual Cost of Structure         $151,047        NPV of Total Project Cost      $7,104,499

  Average Annual Benefit           $177,289        Average Annual Benefit           $177,289
                                                   NPV of Average Annual
                                                   Benefit                        $2,529,914
  Benefit to Cost Ratio*                1.17       Benefit to Cost Ratio**              0.36

   *       Average Annual Benefit divided by Annual Cost of Structure

   **      NPV of Average Annual Benefit divided by NPV of Total Project Costs


www.oig.dhs.gov                                4                                        DD-12-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   The use of NPV, as required by FEMA regulations, results in a project benefit cost ratio
   of 0.36. Because this ratio is not one or greater, the County’s project is not cost
   effective and therefore, not eligible for HMGP funding.


                                    RECOMMENDATIONS

   We recommend that the Acting Regional Administrator, FEMA Region VI:

   Recommendation 1: Disallow $16,302,516 ($12,226,887 Federal share) as ineligible
   because the project did not meet HMGP eligibility requirements.

   Recommendation 2: Develop and implement project review and approval processes
   and procedures to ensure that FEMA Region VI enforces project eligibility requirements
   in the future.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed our finding and recommendations with County, TDEM, and FEMA officials
   and have included their comments in this report as appropriate. We also provided a
   draft report in advance to these officials and discussed it at exit conferences held on
   May 8, 2012, with FEMA; May 16, 2012, with TDEM; and May 17, 2012, with the County.
   FEMA officials agreed with our finding and recommendation 2, but withheld comment
   on recommendation 1. TDEM and the County withheld comment on the finding and
   both recommendations.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for the recommendations. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination. Significant contributors to this
   report were Tonda Hadley, Moises Dugan, Paige Hamrick, Sharon Snedeker, and Jacob
   Farias.



www.oig.dhs.gov                                5                                        DD-12-13
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Should you have questions, please call me at (202) 254-4100, or your staff may contact
   Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                               6                                       DD-12-13
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                EXHIBIT

                               Report Distribution List

                                 Comal County, Texas

                           FEMA Disaster Number 1606-DR-TX



   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison, FEMA Region VI
   Audit Liaison, FEMA (Job Code G-11-074)

   Grantee

   Chief, Texas Division of Emergency Management

   State

   Texas State Auditor

   Subgrantee

   County Judge, Comal County, Texas




www.oig.dhs.gov                            7                       DD-12-13
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
